<html>
<title> - THE U.S. RESPONSE TO NORTH KOREA'S NUCLEAR PROVOCATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                  THE U.S. RESPONSE TO NORTH KOREA'S 
                          NUCLEAR PROVOCATIONS

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 13, 2016

                               __________

                           Serial No. 114-148

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                            U.S. GOVERNMENT PUBLISHING OFFICE 

98-313 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Victor Cha, Ph.D., senior adviser and Korea chair, Center for 
  Strategic and International Studies............................     7
Mr. Bruce Klingner, senior research fellow for Northeast Asia, 
  The Heritage Foundation........................................    19
Ms. Bonnie Glaser, senior adviser for Asia, Director of China 
  Power Project, Center for Strategic and International Studies..    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Victor Cha, Ph.D.: Prepared statement............................    10
Mr. Bruce Klingner: Prepared statement...........................    21
Ms. Bonnie Glaser: Prepared statement............................    40

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    72
 
        THE U.S. RESPONSE TO NORTH KOREA'S NUCLEAR PROVOCATIONS

                              ----------                              


                      WEDNESDAY, JANUARY 13, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr. Salmon. On the evening of January 6, North Korea likely 
conducted its fourth nuclear weapons test. North Korean leader 
Kim Jong Un claimed that the test was a fusion reactive 
hydrogen bomb. Most experts are skeptical, given seismic 
evidence and North Korea's penchant for overstatement. But it 
is, nonetheless, incredibly concerning.
    We convene this hearing today not only to join the 
international community in condemning the test, but to work to 
find a feasible lasting solution to address the North Korean 
nuclear threat.
    For many in the United States, if we think of North Korea 
it is usually the butt of a joke, reference to either The 
Interview or Team America movies. Despite repeated calls from 
both respectable civilian thinkers and top military leadership 
citing North Korea as a top threat in the Pacific theater, 
North Korea seems to have been off the Obama administration's 
radar.
    Instead, they have dismissed the imminent threat by 
employing its so-called ``strategy of patience''--or, excuse 
me, ``strategic patience.'' For our allies in the region, North 
Korean provocations mean so much more, and it should for the 
United States as well.
    History has proven that North Korea has every intention to 
continue advancing its nuclear program. In an effort to 
strengthen both domestic and international positions, the 
United States has shown a willingness to negotiate with North 
Korea if it is simply willing to first take steps toward 
denuclearization. North Korea has shown no interest in doing 
so, but it has successfully extracted food assistance and other 
foreign assistance from us by threatening nuclear activity. 
This is an unacceptable cycle that cannot continue.
    Due to North Korea's nuclear threat and proximity to our 
allies, South Korea, and Japan, our response options are 
limited, but they largely fall into two categories--sanctions 
and information flow. Some argue for United Nations sanctions, 
but others say that would exert little pressure on North Korea, 
largely due to China's lack of enforcement. Some speak of North 
Korea as the most heavily sanctioned state in the world, but 
that is simply not the case.
    For example, Iran is subject to sanctions under 18 U.S. 
executive orders, and North Korea is subject to six. I applaud 
Chairman Royce for his work on the North Korea sanctions 
legislation which passed the House yesterday. I am proud to 
vote for that, and I think it is a good start. But I think much 
more to be done, and that is why we are here today.
    China's relationships with North Korea continues to be a 
problem. China favors North Korea's status quo over the demise 
of the Kim regime, which it fears could mean a unified United 
States allied Korea as a neighbor and a sizeable flood of 
refugees crossing their border.
    These vested interests are why China continues to prop up 
this pariah state with food, oil, and assistance. I am deeply 
disappointed that China continues to allow North Korea to 
destabilize the region in this manner. China must tighten 
sanctions and really enforce the sanctions that are in place 
and apply the unique pressure that only it--North Korea's 
patron--can provide.
    While a nuclear test quickly draws the world's attention 
toward North Korean leadership, we must remember that there are 
24 million people living in this closed-off state, starved of 
basic necessities. Furthermore, citizens are brainwashed into 
believing that their leadership is actually helping them.
    The North Korean Human Rights Act of 2004 initiated radio 
broadcasting to provide basic knowledge of the outside world to 
the people of North Korea. Twelve years have since passed and 
technological advances have been made, and our policies should 
reflect that reality. I intend to introduce legislation that 
would update this program this provide greater, more useful 
information to inform and empower their citizens.
    In 2006, North Korea was removed from the State Sponsor of 
Terrorism List in an attempt to bring it to the negotiation 
table and ultimately halt its nuclear program. Congress has 
debated this issue, and many members believe it should be put 
back on the list. Count me in that category.
    Given the Sony cyberattacks, the shelling of South Korean 
ships, North Korea's alleged ties to Hamas, Hezbollah, and 
Iran, and now this fourth nuclear test, perhaps--maybe perhaps 
nuclear should be placed back on the list.
    The leaders of North Korea, as well as China, should 
understand that every Pyongyang provocation will induce a 
congressional response in an attempt to alter North Korea's 
ways. There is calamity across the globe blurring our focus, 
but the Obama administration's employment of ``strategic 
patience'' comes, I believe, at our peril. Let's be done with 
``strategic patience.'' It is time for strategic clarity. We 
must be proactive in our efforts, and I look forward to this 
important discussion of any recommendations this distinguished 
panel can offer.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. And 
without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
materials for the record, subject to the length limitation in 
the rules.
    And I would like to turn the time over to the ranking 
member for any comments that he might make.
    Mr. Sherman. Thank you. North Korea probably tested a 
hydrogen-boosted device, one that made use of hydrogen isotopes 
but did not get its power from the fusion of hydrogen atoms. 
That being said, it is perhaps half a decade or a decade before 
North Korea tests a genuine thermonuclear weapon. I am sure our 
witnesses will be able to clarify and give us a more precise 
estimate.
    We have throughout this century, which is now in its 16th 
year, had a policy which has completely failed us as foreign 
policy, but has achieved what some would argue is the guiding 
force behind foreign policy, which is meeting domestic 
political concerns. We have not--neither the last 
administration nor this administration--slowed down North 
Korea's nuclear program for any significant time, and 
continuing this policy, or repeating what we have done but only 
in a louder voice, is not going to yield a different result.
    But our policy has allowed us at times--for various times--
to seem tough, and we have avoided offending Wall Street. These 
are important domestic political objectives which have been 
fully achieved. So if viewed from the standpoint of being 
popular domestically, our policy is a success. If we want to 
protect the world from North Korean nuclear weapons, it has 
been a complete failure.
    In terms of what we could do if sounding tough wasn't 
important, we could make it clear to China that, if there was a 
unified Korea, American forces would not be north of the 38th 
parallel and might even be further south. There would be less 
reason for them to be there.
    We do not have any military forces defending any other 
China neighbor from China. Our troops in South Korea are there 
to defend South Korea from North Korea. We could offer North 
Korea a package of aid--that has been done before--but a non-
aggression pact that they asked for and we refused to provide, 
because Dick Cheney imagined invasion, or at least didn't want 
to give up that opportunity sometime in the future.
    But the most important thing we need to do, and the thing 
we are least likely to do, is to make it clear to China that 
their access to U.S. markets depends upon them getting tough 
with North Korea. Wall Street would be aghast if we actually 
did it, so we won't. So we are likely to continue the current 
circumstance. China is indeed miffed by what North Korea has 
done, but is unwilling to change its policy, and, of course, 
China has been miffed by North Korea many times in the past.
    China will not change its policy unless the reality 
changes, and the current reality is they have free access to 
U.S. markets and that won't be changed if they choose to 
continue the policy that they have continued throughout this 
century, which is to subsidize North Korea.
    So if we want a policy that doesn't meet domestic political 
objectives, but simply maximizes the carrots and sticks on 
North Korea, it would be a matter of a non-aggression pact on 
the 38th parallel, and the threat of tariffs on Chinese goods 
if China continues--while always questioning--it but continues 
a policy of subsidizing North Korea.
    So my guess is that we will simply continue to pull our 
hair out--obviously, I have done more of that than most of the 
witnesses--in worry about North Korea, and talk tough, and do 
nothing that offends Wall Street. And if you keep doing the 
same thing for now a 16-year-old century, and expect a 
different result, that is the definition of insanity.
    And a final thing I will ask our witnesses to comment on is 
whether we would actually get somewhere if we consent--if we 
agreed that North Korea could have a very limited number of 
atomic but not thermonuclear weapons, or is there a real 
prospect of getting them to be a nuclear-free state.
    I yield back.
    Mr. Salmon. I just wanted to comment for the ranking 
member, I think that many of the issues that you raised are 
thought-provoking and reasonable, and I would like to extend a 
hand across the partisan divide to work with you in any way, 
shape, or form to not just pull our hair out but actually get 
some results.
    And if that offends some folks, some special interests, 
then so be it. I think the more important goal is to have 
success. I think all of the world expects success. And so I 
just want to say that I think you have raised some legitimate 
issues that need to be explored, and I intend to work with you 
to do that. Look forward to it.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing at a very significant 
moment.
    Our relations with both Koreas go back a long way, and I 
have a long memory. I still remember sitting right here in this 
room when the Clinton administration was proposing to us that 
we have--that we cut a deal, basically, with North Korea, that 
we would be providing them food and fuel for an agreement not 
to do what they apparently have been doing, which is--I don't 
care if you want to call it a hydrogen booster device or a 
hydrogen nuclear weapon; the fact is they obviously have been 
spending their money on developing ways of mass murdering other 
people while we have been providing them the money for their 
food and fuel.
    To say that that is absolutely unacceptable is to put it 
mildly. And, at that time, I indicated, and several other 
Republicans, I might add, and a couple of other Democrats as 
well, I might add, pointed out that that is what would happen, 
and here it has. Surprise, surprise. They have used their 
resources to develop weapons of mass destruction. We have 
subsidized them in using our money to provide them food and 
fuel, which should be coming out of their, how do you say, 
hydrogen boosting device development budget.
    Let me suggest that this nuclear explosion, and the 
continued--the obvious continued work that North Korea is doing 
on nuclear military devices, that should at least put us into a 
mindset that we have to do something different than what we 
have been doing.
    And let me note that President Abe of Japan has made it 
very, very clear that there are threats to the Pacific, and I 
would applaud President Abe for reaching out to South Korea at 
this moment. President Abe of Japan has gone the extra mile to 
address sensitivities in South Korea that are left over way 
from World War II.
    And he needs to be applauded for that, and he needs to also 
be encouraged to rebuild Japan's military strength, so that he 
can work with the United States of America in preserving the 
peace in that part of the world, instead of having the United 
States having to carry the entire load on our own.
    So with that said, I would finish by saying the other 
factor is, which the chairman mentioned, China. Just as it was 
obvious that the North Korea regime, as corrupt and belligerent 
and as repressive as it is, would be using their money to 
develop weapons while we provided them food and fuel, it is 
just as evident that they have a relationship with Beijing that 
puts Beijing into a position of influence in North Korea, if 
not dominance of North Korea.
    So let us, again, to the point that we applaud President 
Abe for reaching out and policies that are going to ultimately 
bring more stability to that part of the world, let us condemn 
Beijing for not using its influence in a way that would bring 
more stability and peace to that region.
    So we need to work together on this, and, Mr. Chairman, 
thank you for calling this hearing. Looking forward to hearing 
for specifics and information from the witnesses that will help 
us develop our policy now as we start into this new era.
    Thank you.
    Mr. Salmon. I thank the gentleman from California.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, and thank you for the 
timeliness of this hearing. A few weeks ago I had a chance to 
visit the Republic of Korea, visit with our troops, and spend a 
few days around Christmas with our troops, also visiting with 
the Korean foreign secretaries, national security folks, et 
cetera.
    I also had a chance to go up to the demilitarized zone and, 
you know, chat with our troops, see the Republic of Korea 
troops. The demilitarized zone is an oxymoron. This is one of 
the most heavily militarized zones in the world, and it is a 
constant reminder that we are in a cease fire. we are not in a 
state of peace.
    You know, listening to the remarks of my colleagues, I 
think it is important for us to learn from what we have tried 
in the past, and so forth. But the conundrum is North Korea is 
not easy, and it will require a partnership with the countries 
in that region.
    And, in many cases, we all land at the same place, that 
China really does have to take a leadership role here. China is 
the one country that does have some leverage with North Korea, 
but it will take a partnership between, you know, the Chinese 
Government, the Russians, Japan, our Korean allies, along with 
U.S. leadership, in order to address this.
    It is in all of our interest to deescalate tensions, to try 
to bring North Korea into the 21st century. And the other goal 
that I think many Koreans have of seeing reunification, you 
know, it is not going to be easy. It will take world 
leadership. It will take the nations, along with the United 
States, in that region working together, but it can be done if 
we put our minds to it. And we have to; there is an urgency 
now, as indicated by the recent North Korean nuclear tests.
    It is complicated, and, you know, the President talked 
about the threats that, you know, we face in the Middle East. 
But those are not threats to our very existence as a nation, 
and North Korea, with the hydrogen bomb, with ballistic missile 
and ICBM capabilities, are a threat to world stability, and we 
have got to direct this. There is the urgency of now.
    And, Mr. Chairman, I look forward to working with you to 
kind of navigate this path forward, and it is incredibly 
important.
    Mr. Salmon. Thank you.
    Mr. Chabot.
    Mr. Chabot. Thank you very much, and thank you, Mr. 
Chairman, for holding this important hearing. I mean, there is 
no question that the world has had a problem for a long time 
with respect to North Korea, particularly their leadership. 
Whether the grandfather or the father or the son now, they are 
all equally as crazy, I am afraid, particularly the newest one.
    But their own people continue to suffer and to starve. They 
are the most politically isolated country on the globe. Despite 
that, they continue--they have absolute contempt for most of 
the rest of the world, including their neighbors. And with this 
fourth now in the last number of years nuclear tests, and we 
have reason to believe it is hydrogen, although that hasn't 
been confirmed necessarily yet, but, nonetheless, it is 
terribly disturbing.
    I think every administration, from the Clinton 
administration to the Bush administration to the Obama 
administration has failed with respect to North Korea, and that 
is most unfortunate. And now with the increasing sophistication 
of their missile systems, the United States is at risk as well. 
But two countries that are even more at risk at, obviously, 
South Korea and Japan.
    And as my colleague, Mr. Rohrabacher from California 
indicated, China is the key here. China is the only country 
that has any real influence over North Korea. And the only 
thing that is going to get China's attention is if those two 
countries, Japan and South Korea, seriously consider nuclear 
programs of their own. That is the only thing that is going to 
get China's attention. It is the last thing China wants.
    And so I would urge those two countries to think seriously 
about this. I am not encouraging them to do it, but even 
thinking about it and discussing it I think will get China's 
attention. And maybe China will finally act to put the pressure 
on North Korea necessary to get them to back off this insanity 
of one of the poorest countries in the world spending all their 
money on nuclear weaponry to threaten the rest of the world.
    I yield back, Mr. Chairman.
    Mr. Salmon. I thank the gentleman. Is there anybody else 
that seeks recognition on the panel before--yes, Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair, for holding this 
hearing. I find this very interesting. I think the focus of 
what you have heard a lot is China, what are we going to do to 
deal with China in terms of the pressure that China has. To me, 
there are a couple of questions I would like to understand 
before we get into what we have to do to press China, or to do 
anything else; that is, what does China want? Where is China at 
this--not because of our pressure.
    Two, I have seen over the past year or so some articles, 
especially in the New York Times, about Chinese officials, 
former military officials, retired, talking about the 
unsustainability of the Kim regime, and that there is a real 
concern in China about instability in North Korea. I would like 
to hear that discussion, that there is going to be pressure 
from the bottom up. People cannot live under those conditions, 
and the Chinese know this. The Chinese know, and there are real 
worries about the Chinese, about what that instability is going 
to lead to in terms of them.
    So that leads us to the third point; that is, when we talk 
about China, knowing that China--it is not getting China 
involved. China is very involved with what are the 
consequences. It may have its own agenda about what it wants to 
do with this. The question is, besides pressure on China--and 
we have heard a lot, and I am not saying that that is not a 
potential--what are the ways of partnership with China? What do 
you see as the opportunities at this moment to be dealing with?
    Thank you very much, and I yield back.
    Mr. Salmon. I thank Mr. Lowenthal. Very insightful thoughts 
and questions.
    If there are no other opening statements, then I am going 
to move to the panel, first of all introducing three great 
experts on this dicey issue. First is Dr. Victor Cha, senior 
adviser and Korea chair at the Center for Strategic and 
International Studies. It is good to see you again, Dr. Cha. 
Mr. Bruce Klingner, senior research fellow for Northeast Asia 
at The Heritage Foundation. And Ms. Bonnie Glaser, who is the 
senior adviser for Asia and director of the China Power Project 
at the Center for Strategic and International Studies.
    We are thrilled to have all of you here today, and thank 
you for making the time available. First, I will introduce Dr. 
Cha.

STATEMENT OF VICTOR CHA, PH.D., SENIOR ADVISER AND KOREA CHAIR, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Cha. Thank you, Mr. Chairman, Representative Sherman, 
and members of the committee. It really is an honor to speak to 
you today about a very difficult topic, and that is North 
Korea.
    You mentioned--both the chairman and Congressman Bera 
mentioned urgency, and I think there is a great deal of 
urgency. There are elements of deterrence and crisis 
instability that derive from North Korea's nuclear weapons 
status that I don't think the North Koreans fully comprehend. 
And it can also be the case that the North Korean leader, this 
young North Korean leader, views nuclear weapons as usable 
weapons rather than as strategic elements of deterrence, 
valuable only in their non-use.
    So the urgency is that the result could be a disaster at 
the cost of tens of thousands of lives, at which point the 
world is going to wonder why the United States did nothing to 
stop this before it was too late.
    So what have we done? In the administration's own words, 
strategic patience, the policy of strategic patience, had two 
objectives. The first was to break the cycle of provocations 
for negotiations that was the flaw of past administration's 
policies.
    Second, the concept was that this idea of pressure and non-
dialogue would eventually cause the North Koreans to feel 
compelled to come back to negotiations genuinely willing to cut 
a deal. When this did not work, the administration did try to 
reach out and engage, but all of these offers had been spurned 
by the regime.
    So we are in the worst of all worlds right now. There is no 
diplomacy. There are more tests, a growing program, a new cycle 
of provocations. We have had four nuclear tests, three of them 
during the Obama administration, two of them before the 
President's State of the Union speech. And at the rate we are 
going, this issue is just going to get punted to the next 
administration, and it is going to be an exponentially worse 
problem.
    So a new approach to North Korea has to focus on what Bob 
Gallucci and I described in the New York Times last week as 
asymmetric pressure points. In my experience, being involved in 
the negotiations in the previous administration, there were 
only two times where I felt like the North Koreans were truly 
caught off guard, uncertain of how to respond.
    The first of these was in September 2005 when the Treasury 
Department took actions that led to the freezing of North 
Korean assets at a bank in China. And the second was in 
February 2014 in the aftermath of the United Nations Commission 
of Inquiry report of which the major recommendation was 
referral of the North Korean leadership to the ICC for crimes 
against humanity.
    These were the only two times that I really felt the North 
Koreans were frazzled, and I think a new strategy has to build 
on these pressure points. Let me just highlight a couple of 
these.
    First is sanctions, and I know Bruce will talk about this 
as well. As the chairman said, it is a policy myth that North 
Korea is the most sanctioned country in the world, and the 
chairman cited some of the statistics for how the sanctioning 
against Iran is much higher than that against North Korea. So 
there is plenty more space to operate there.
    Secondary sanctioning should also be given positive 
consideration. I know that this has been talked about within 
policy circles as a significant escalation, and this will 
certainly complicate our relationships with China, the European 
Union, Southeast Asia, South America, and Africa. But it is 
also certain that many of these entities will comply when given 
the choice of dealing with North Korea or losing access to the 
U.S. financial system.
    We should also give serious consideration, as the chairman 
said, to putting North Korea back on the State Sponsor of 
Terrorism List. I know that there will be lawyers who will 
dispute the legal criteria for putting North Korea back on the 
list, and here I would only urge that particular attention be 
given to North Korea's cyber capabilities. We did research at 
CSIS that shows that the activities, these cyber activities, 
are instigated by the same agencies, entities within the North 
Korean Government that have been responsible in the past for 
terrorist acts.
    Human rights has to complement sanctions as part of an 
asymmetric strategy. One of the potential targets would be 
North Korean slave labor. There are over 50,000 workers in 
Africa, the Middle East, Europe, Russia, and China, that are 
operating in sub-human conditions that are being paid nothing. 
Their revenues all are going back to the North Korean 
Government. There are different estimates, between $250 million 
to over $2 billion of hard currency. So this is certainly 
something that should be targeted.
    Another useful asymmetric pressure point is the Kaesong 
Industrial Complex. This project now provides $90 million in 
hard currency to North Korean authorities, with little wages 
actually going back to the factory workers. The South Korean 
Government will probably be opposed to something like this, 
because even conservative governments have grown attached to 
the Kaesong industrial complex, but difficult times call for 
difficult measures.
    Lastly, on information, North Korea under Kim has proven to 
be hypersensitive to external criticism with renewal of the 
North Korean Human Rights Act, and I entirely agree with the 
chairman on the idea of trying to increase funding and 
basically think about new ways of bringing information into the 
country.
    As some of the work that we have done with the Bush 
Institute has shown, the United States and South Korea can come 
up with a comprehensive strategy for breaking down North Korean 
information barriers, because in the end we need to improve the 
human condition of the people in North Korea.
    Thank you very much.
    [The prepared statement of Mr. Cha follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Klingner.

  STATEMENT OF MR. BRUCE KLINGNER, SENIOR RESEARCH FELLOW FOR 
            NORTHEAST ASIA, THE HERITAGE FOUNDATION

    Mr. Klingner. Thank you, Mr. Chairman, Ranking Member 
Sherman, and other distinguished members of the panel. It truly 
is an honor to be asked to appear before you on such an 
important issue to our national security.
    North Korea's recent nuclear test has again triggered 
widespread calls to do something tougher on North Korea. But we 
have been here many times before, and each time administration 
claims of tough action were taken at face value, pledges to be 
even tougher the next time were issued, and interest was 
eventually diverted elsewhere.
    More effective action was also hindered by several widely 
accepted myths about North Korean sanctions. The first myth is 
that sanctions can't affect an isolated country like North 
Korea. Targeted financial measures, which are a law enforcement 
mechanism, are directed against specific entities that violate 
U.S. laws. Even the most isolated regime, criminal 
organization, or terrorist group is tied into the global 
financial order.
    The vast majority of all international financial 
transactions, including those of North Korea, are denominated 
in dollars, which means they must go through a U.S. Treasury 
Department regulated bank in the United States. That gives the 
United States tremendous power and leverage to freeze and seize 
assets, to impose fines such as a $9-billion fine imposed on a 
French bank for improper financial transactions with Cuba, 
Iran, and Sudan, and also to deny access to the U.S. financial 
system.
    As you already pointed out, Mr. Chairman, a second myth is 
that North Korea is the most heavily sanctioned country in the 
world. President Obama claims North Korea is the most isolated, 
the most sanctioned, the most cutoff nation on Earth. That is 
simply not true. The U.S., the European Union, and the U.N. 
imposed far more pervasive and compelling measures against Iran 
than North Korea.
    Also, unilaterally, the United States has targeted far 
fewer North Korean entities than those of the Balkans, Burma, 
Cuba, Iran, and Zimbabwe. The U.S. has sanctioned more than 
twice as many Zimbabwean entities as North Korean entities. We 
have also designated Iran and Burma as primary money laundering 
concerns, but not North Korea, which is counterfeiting our 
currency.
    The U.S. has sanctioned officials from Burma, Burundi, 
Congo, Iran, Syria, Sudan, and Zimbabwe, for human rights 
violations, and sanctioned by name the Presidents of Belarus 
and Zimbabwe, but not yet sanctioned a single North Korean 
entity for human rights violations nearly 2 years after a U.N. 
Commission of Inquiry report concluded the regime was 
conducting such egregious human rights violations as to 
constitute crimes against humanity.
    The U.S. has also frozen the assets of Sudan, Iranian, and 
Syrian, but not North Korean, officials and entities for 
censorship. The list goes on and on, and I have included other 
examples in my written testimony.
    A third myth is there is nothing more the U.S. can impose 
on North Korea. After he left office, former Assistant 
Secretary of State Kurt Campbell commented, ``It would be 
possible for us to put more financial pressure on North Korea. 
We can make life much more difficult through financial 
sanctions on North Korea.'' And he also pointed out he was 
surprised when he was in government to find out that there were 
about 10 times as many sanctions on Burma as there were on 
North Korea.
    President Obama, Secretary of State John Kerry, and other 
officials have made similar statements indicating that there 
are other measures that the U.S. could impose but hasn't.
    A fourth myth is that sanctions don't work. As Dr. Cha 
already pointed out, tougher measures were effective when 
applied. In 2005, the U.S. designated the Macao-based bank 
Banco Delta Asia as a money laundering concern for facilitating 
North Korean illicit activities. As a result of Washington 
belatedly enforcing its laws, as well as a series of sub rosa 
meetings by U.S. officials throughout Asia, two dozen financial 
institutions voluntarily cut back or terminated their business 
with North Korea.
    And a North Korea negotiator admitted to a senior White 
House official, ``You finally found a way to hurt us.'' 
Instead, what the U.S. should be doing is implementing the Iran 
model against North Korea. Just as strong international 
measures induced Tehran back to the negotiating table, more 
robust measures are needed to leverage North Korea.
    While implementing new sanctions measures is important, 
fully implementing and enforcing already existing, far-reaching 
measures is also critical. The U.S. has the tools; we have just 
lacked the resolve to fully use them.
    For years the Obama administration has been hitting the 
snooze bar on sanctions. It has pursued a policy of timid 
incrementalism by holding some sanctions in abeyance to be 
rolled out after the next North Korean violation or 
provocation. The U.S. instead needs to sharpen the choices for 
North Korea by raising the risk and cost for those violating 
laws and U.N. resolutions, not only North Korea but also those 
that facilitate its actions.
    In my written testimony, I provided a lengthy list of very 
specific recommendations for U.S. and South Korean actions that 
should be implemented against North Korea. Neither sanctions 
nor diplomacy alone is a panacea. Both are essential and, along 
with fully funding U.S. defense requirements, should be 
mutually reinforcing elements of a comprehensive integrated 
strategy.
    I will conclude my presentation with the same question I 
posed to this committee 2 years ago. Why has the United States 
hesitated to impose the same legal measures against North Korea 
that it has already used against other countries for far less 
egregious violations of U.S. and international law?
    Thank you again for the privilege of appearing before you.
    [The prepared statement of Mr. Klingner follows:]
    
     
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Salmon. Thank you.
    Ms. Glaser.

   STATEMENT OF MS. BONNIE GLASER, SENIOR ADVISER FOR ASIA, 
   DIRECTOR OF CHINA POWER PROJECT, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Ms. Glaser. Chairman Salmon, Ranking Member Sherman, and 
distinguished members of the subcommittee, I am honored to have 
the opportunity to testify today on this very important issue.
    As so many of you have already pointed out, cooperation 
from China, North Korea's main benefactor, is essential to 
achieving a nuclear-free peninsula. China is North Korea's 
biggest trading partner. It accounts for 90 percent of North 
Korea's global trade, provides at least 70 percent of North 
Korea's crude oil requirements, some 80 percent of its consumer 
goods, approximately 45 percent of its food, and Chinese 
investment accounts for almost 95 percent of foreign direct 
investment in North Korea.
    The U.S. should not expect Beijing to completely abandon 
its ally and forge a common strategy with Washington to squeeze 
North Korea until it gives up its nuclear weapons or collapses. 
But it may be possible to persuade China to strictly comply 
with its existing international commitments to further tighten 
sanctions on North Korea and to reduce its support or make 
continued support contingent on specific actions by Pyongyang 
to return to its denuclearization pledges.
    To elicit greater cooperation, the U.S. must attach high 
priority to North Korea on the U.S.-China agenda, especially in 
summit meetings between our Presidents, U.S. and Chinese 
leaders. Cooperation on North Korea should be identified as a 
litmus test of the proposition that the United States and China 
can work together where their interests overlap, and the U.S. 
should then take the following steps.
    First, the U.S. should call out China for its failure to 
enforce existing U.N. sanctions. North Korea has deep networks 
with Chinese companies and uses these relationships to procure 
prohibited items from all over the world, routing them through 
China before onward shipment to North Korea. Designated North 
Korean entities continue to do business with Chinese companies 
and visit Chinese ports. North Koreans are reportedly still 
able to conduct banking transactions in small banks operating 
in Northeast China along the border. China does not enforce the 
ban on luxury goods.
    Second, the U.S. should press Beijing to agree to the 
designation of more North Korean individuals and entities in 
new U.N. Security Council resolution.
    Third, the U.S. should encourage Beijing to use its 
leverage over North Korea in targeted ways to pressure for 
change in its behavior. China could refuse to engage in new 
economic projects with North Korea until the government returns 
to negotiations in good faith. Beijing could reduce the flow of 
Chinese tourists to North Korea, which has become a significant 
source of foreign exchange.
    Fourth, the United States should encourage China to 
leverage its assistance to North Korea to influence its 
behavior. So to deter North Korean long-range missile launches 
and nuclear tests, China could agree to warn Pyongyang that 
future provocations would be followed by a cutback in Chinese 
aid. Beijing could also insist that Pyongyang return to its 
commitments under the Six Party talks or face substantial 
reductions in deliveries of crude oil, kerosene, diesel, and 
gasoline.
    And, fifth, the U.S. should press China to not obstruct 
discussion in U.N. bodies on human rights abuses in North 
Korea. And my colleague, Victor Cha, has already underscored 
North Korea's sensitivity to this issue.
    Securing cooperation from China to increase pressure on 
North Korea may be more feasible than in the past. Xi Jinping 
is a decisive and bold leader who has a clear vision of what is 
needed to achieve what he calls the ``Chinese dream,'' the 
great rejuvenation of the Chinese nation. And under Xi's 
leadership, China has embarked on an effort to end the special 
relationship of the past between Beijing and Pyongyang and 
replace it with a normal state-to- state relationship.
    Widely viewed as the most powerful leader China has had 
since Deng Xiaoping, Xi Jinping has sufficient clout to 
overrule opposition from potent constituencies in China that 
would resist a tougher stance toward North Korea, especially in 
the party and the military.
    Beijing is not prepared to assume sole responsibility for 
addressing the North Korean nuclear threat, but China might be 
willing to do more along the lines that I have outlined if it 
believes that the U.S. has an effective strategy, is 
prioritizing the goal of creating a non-nuclear Korean 
peninsula, and does not seek to use the Korean peninsula to 
harm Chinese interests.
    What does China want? A balance of power in Northeast Asia 
that is favorable to Chinese interests, and certainly does not 
threaten Chinese interests.
    I believe China does not adamantly oppose Korean 
unification, but the known burdens and dangers of the status 
quo today are less risky for China than the uncertainty that 
unification may bring for Chinese interests.
    And I look forward to the discussion. Thank you again.
    [The prepared statement of Ms. Glaser follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Salmon. Thank you. I would like to thank the 
distinguished panel members very much for making the time to be 
here today. You know, it is kind of unnerving when Seth Rogen 
gets more reaction out of the North Koreans than our American 
policies do. He certainly hit a nerve, you know, when he put 
that movie out, a lot more than any of the blustering that has 
been coming out of Washington, DC.
    It has been a conundrum, as pointed out by my colleague, 
Dana Rohrabacher, that is not new. It is not an issue that was 
resolved at one time and has degraded. It has never been 
resolved. And every time I have spoken with any expert about 
how to get North Korea to start living with accepted 
international norms, especially when it comes to proliferation, 
every one of those conversations always involves China, because 
they are the 800-pound gorilla when it comes to dealing with 
North Korea, because of North Korea's dependence on them for 
food and energy.
    And, Ms. Glaser, you have made some very I think astute 
observations on what China could do. But how do we motivate 
them properly to get that done? There have been a lot of things 
talked about--maybe targeted sanctions that involve Chinese 
banks that fund North Korea. Maybe that is something we can 
look at. I spoke to Mr. Sherman about that, maybe looking at 
that in a bipartisan way.
    Mr. Klingner, you have said that in your submitted speech, 
your written speech, you are going to be talking about several 
of the sanctions that maybe could and should be on the table. I 
would like us to really look at entertaining those. I think 
that the bill that was passed yesterday on the House floor was 
a good move. I think it moves the ball up the field. But I 
think there is even more to be done.
    You have pointed out, rightly so, Mr. Klingner, that we 
haven't even considered or done similar things that we have 
done to far less egregious offenders in the world today. And I 
think that is abominable. I think we should put all things on 
the table.
    I would like to ask you, Mr. Klingner, why do you think 
that there has been such restraint on dealing with North Korea 
in the same way that we have dealt with far less offenders? 
What is the rationale? It doesn't make any sense to me. Why 
have we been so reticent to do so?
    Mr. Klingner. That is an excellent question, sir, which I 
really don't have an answer to. It really is counterintuitive. 
You know, if you just compare Iran and North Korea, Iran 
remains in the Non-Proliferation Treaty. North Korea is out. 
Iran claims that its nuclear program is for civilian purposes. 
North Korea quite clearly says it is to incinerate the U.S. and 
its allies. Iran, you know, has not exploded a nuclear device. 
North Korean has done four.
    And Iran has oil. One would think that we would have more 
pressure on North Korea than Iran, but we haven't. There are 
perhaps the concerns as to how North Korea will respond if we 
impose additional measures. I don't think we should be hesitant 
to enforce our laws because of the concerns of what the 
criminal will do if we enforce them.
    Similarly, as has already been talked about, is how will 
China respond? When I advocated additional measures against 
North Korea, I have said, ``Let the law enforcement people go 
where the evidence takes them.'' And someone once commented to 
me that, ``Oh, so you want to sacrifice the all-important U.S.-
China relationship over North Korea?''
    I said, ``Well, no. What I am saying is I don't want to 
give China immunity from U.S. law simply because they are 
China.'' So we should go where the evidence takes us. We should 
sanction whatever entities are violating U.S. and international 
law and U.N. resolutions, not because they are Chinese but 
because they are violating our laws and the resolutions.
    Mr. Salmon. I think that your answer kind of dovetails with 
the opening statement of the ranking member, and I think that 
these comments really have a lot of bearing on going forward. I 
think that there really shouldn't be any sacred cows when it 
comes to enforcing our laws. And protection of special 
interests or, you know, ongoing concerns over a bilateral 
relationship with China, these are serious issues. And China 
has not stood up for its obligations, I believe, in this realm.
    One thing that has been mentioned that might get China's 
attention, and I think it is also just good policy, is what 
about the U.S. bolstering our support for a missile defense 
system for South Korea at the least, and maybe Japan? What do 
you think about that, Dr. Cha and Mr. Klingner?
    Mr. Cha. So I think that is a great idea. On the China 
piece of it, first, as Bruce said, when there was a Section 311 
against a Chinese bank in Macao in 2005, that was a law 
enforcement action. It was a Chinese bank. And, in the end, the 
U.S.-China relationship survived. So, and it was an effective--
it was a very effective measure. And it actually may take 
things like that to actually motivate China. We are almost 
self-deterring in that sense, supposed equities in the 
relationship.
    With regard to measures with other countries in the region, 
I think absolutely this--all of North Korea's activities speak 
to the need for a much more robust and networked missile 
defense system in Asia, including the United States, Japan, and 
South Korea. As was mentioned, the relationship between Japan 
and Korea has gone through some rough periods, but it is on the 
mend, and there are I think opportunities here, particularly in 
South Korea, to talk about more missile defense as well as 
better intelligence and information-sharing among the three 
countries.
    These have been on our agenda with our allies for quite 
some time, and we haven't been able to push them forward. And 
unfortunate as it is, you know, when we were working on the 
policy every time North Korea did something bad, the motto in 
the office was, ``Well, let's make lemonade out of this 
lemon.'' And one of the ways to make lemonade out of this lemon 
is to really consolidate our defense alliances, and that also 
complicates the environment for China and may motivate them to 
do more.
    Mr. Salmon. Mr. Klingner.
    Mr. Klingner. Yes. Last year I wrote a detailed research 
paper that South Korea should allow the U.S. to deploy THAAD, 
the Terminal High Altitude Air Defense System. To date, the 
South Korean administration has not even wanted to publicly 
discuss it. And, as I pointed out in the paper, THAAD is better 
than anything the South Koreans have or will have for decades 
to come. It is more much capable.
    Also, I point out that the Chinese claims that it will 
impair their ability to assault the United States or our allies 
with missiles, they are red herrings. The THAAD is very 
effective against North Korean missiles, but it will have no 
constrainment on Chinese missiles. Therefore, China's 
objections are politically based.
    So I think the U.S., in consultation with our allies, 
should deploy THAAD. It will improve the defense of not only 
our forces there, but of South Korea, and also, as Dr. Cha 
said, to have South Korea integrate its system into the more 
comprehensive, effective allied system with Japan, because we 
are all in this together. You know, the same North Korean 
missile could be aimed on the same trajectory toward South 
Korea, U.S. Forces in Korea, or U.S. Forces in Japan, which are 
critical for the defense of the Republic of Korea.
    Mr. Salmon. It is no secret that the relationship between 
China and South Korea has blossomed over the last several 
years, and they have tried to do everything they can to improve 
trade, and all aspects of that bilateral relationship. It is 
also no secret that China has lobbied, and I think that is the 
understatement of the universe, South Korea against THAAD.
    And I think it is time for us, as leaders in the region, to 
step up our voices and our commitment to security in the region 
by support for things like that and try to reignite some 
support for those things, because maybe, just maybe, besides 
being good policy, from our strategic interests, self-strategic 
interests, it might be a really good motivation factor for 
China to finally get off its duff and do something about this 
serious global problem.
    The Chair recognizes Mr. Sherman.
    Mr. Sherman. Usually it is the witnesses that answer 
questions. But one question has come up, and that is, why did 
we do it in Iran and not North Korea? So I think I will answer 
the question. When Congress passed the sanctions laws, they 
provided secondary sanctions, which is the only way you go 
after these regimes. If the law had been enforced it would have 
made Iran's trading partners very angry.
    Administrations refused to enforce those laws, gave Iran a 
lot more time to get very close to a nuclear weapon, but they 
began to persuade Iran's trading partners that they should go 
along with this pressure. And only to the extent that we could 
carry out the sanctions regime without angering Iran's major 
trading partners did we carry it out.
    And we used persuasion. And who were we persuading? Europe. 
So we had sanctions on Iran only to the extent that we could 
get Europe not to be terribly angry if we forced them to go 
along.
    As to China, persuading them will be considerably more 
difficult. And so the chairman and I are talking about, for 
example, sanctions on Chinese banks. That will make China 
angry. In dealing with Iran, the administration got as far as 
it did without making anybody really angry, any of Iran's 
trading partners. I think this North Korean nuclear program is 
significant enough that we should be willing to make China 
angry.
    Now, I might talk about a tariff on their goods that would 
make them angrier than I could persuade my colleagues in 
Congress to go along with. But they will be pretty angry with 
the banking sanctions.
    Dr. Cha, you say there are some who doubt that North Korea 
is legally a terrorist state. One act of terrorism is when you 
see civilian hostages, and that act of terrorism continues at 
least until you release the hostages. And if you seize Japanese 
homemakers and hold them hostage for decades because you want 
somebody to teach you how to pour tea, that is an act of 
terrorism.
    Dr. Cha, is there any doubt that North Korea is engaged in 
terrorism until they release the hostages they have seized? Or 
their bodies, for those who have died?
    Mr. Cha. You have no disagreement from me there.
    Mr. Sherman. Okay.
    Mr. Cha. Congressman, I think that there have been many 
actions in that vein, almost a regular state practice of 
detaining innocent individuals, Americans and other 
nationalities, in the country for no apparent reason, and that 
is just unacceptable.
    My only point was that I think that the other area that we 
could investigate in terms of criteria for putting them back on 
the list is the cyber area. The----
    Mr. Salmon. The cyber terrorism is bad enough. But when you 
seize people and hold them for decades because you want 
somebody to teach you a tea ceremony, I have one comment and 
that is North Korea is very status conscious.
    And, of course, the biggest boost to your ego is to have a 
nuclear-tipped ICBM. The cheesy way to deliver a nuclear weapon 
is to smuggle one. But I will point out that you can smuggle a 
nuclear weapon inside a bale of marijuana, and a missile 
defense program isn't going to stop that.
    And, in fact, you have the additional advantage of having 
plausible deniability or a delay. So retaliation doesn't occur 
in cold blood. It doesn't occur after a 90-day investigatory 
process.
    I want to go to one more line of questioning. Al-Kibar in 
Syria, North Korean technology. Just a quick question, does any 
of our witnesses have any guess as to how much money North 
Korea was given for cooperating with al-Kibar? I am not seeing 
any witnesses. But we do--the estimates have been in the 
hundreds of millions of dollars.
    We know two things. Iran wants a nuclear weapon. Iran is 
about to get its hands on $130 billion. Would North Korea be 
willing to sell not--they have already proven they are willing 
to sell nuclear weapons kits, if you will, or equipment and 
plans. Does North Korea have enough atomic weapons that they 
would be willing to sell one or two of them? And is this a 
multi-billion dollar cost for whoever wants to buy them? Do we 
have--Mr. Klingner.
    Mr. Klingner. I was going to address your comment about 
North Korea as a terrorist nation, if I could. In my written 
testimony, I have a long list of actions that North Korea has 
taken which I think fulfill the legal obligation for relisting 
them as a terrorist nation. There are a number of U.S. 
statutes. Perhaps the most relevant is 18 U.S. Code 2331, which 
defines international terrorism as ``involving violent acts 
that would be a violation of criminal laws of the U.S., and 
that appear to be intended to intimidate or coerce a civilian 
population.''
    I think the threats of a ``9/11-type attack'' for citizens 
of the U.S., or inhabitants of the U.S. to go to theaters to 
watch that movie, you know, is considered trying to coerce the 
population. And there have been a number of items that I have 
listed of North Korean attempts at assassination and kidnapping 
and that have been recognized by South Korean courts. So I 
think any one of those should have put North Korea back on the 
U.S. list, and certainly cumulatively.
    As for whether North Korea would sell a nuclear weapon, as 
you correctly point out, they have shared and sold nuclear and 
missile technology with a list of rogue nations. I question 
whether they would sell a completed weapon, though. I think it 
might go beyond what they would be willing to do, but I 
certainly could be very wrong on that. Certainly, as they 
develop a larger arsenal, they might be more willing to do 
something.
    Mr. Sherman. What I have said in this room is they need 
their first 12 atomic weapons to defend themselves from us. The 
13th doesn't go on eBay, but could be available for sale.
    Dr. Cha.
    Mr. Cha. Well, there is certainly a history there. I mean, 
every major weapon system the North Koreans have ever developed 
they have sold. And I am----
    Mr. Sherman. And they haven't drawn the line at nuclear. I 
mean, had things gone as planned, Syria or Iran operating in 
combination at al-Kibar would have a plutonium nuclear device. 
And it is not that North Korea says, ``Oh, that is so immoral; 
we couldn't participate in that.''
    Mr. Cha. So it is definitely a concern in the case of--as 
you know well, their missile sales, that has certainly been the 
case. And, you know, I think part of their effort at trying to 
develop longer range and more accurate missiles aren't to sell 
them. So you can't put it past them in terms of the nuclear 
site.
    But even aside from the sort of overt proliferation, just 
by virtue of the fact that they have a nuclear arsenal that is 
growing, creates all sort of very serious crisis and stability 
problems for the United States. I mean, the notion that they 
can keep a dozen or two dozen bombs, and as long as we deter 
them we are safe, is completely wrong, because should any 
crisis develop on the peninsula, North Korea is developing 
these nuclear capabilities at the expense of massive degrading 
of their conventional capabilities.
    And so what that means is if we are ever in a military 
crisis, we immediately have to shoot up the escalation ladder, 
and that immediately forces us to consider preemption. So it is 
a highly unstable situation that I think gets lost among the 
general public, because as the chairman said----
    Mr. Sherman. Doctor, I have gone way over time. I yield 
back.
    Mr. Salmon. I did, too, so I was looking the other way.
    The Chair recognizes Mr. Rohrabacher.
    Mr. Rohrabacher. I will try not to go over time. First of 
all, let me thank the witnesses. Your testimony has been of 
great value to me and to this committee, and the points that 
you have made, all of you, I mean, you have made some very 
serious points and given us information that we will utilize in 
this coming year as we try to come up with a policy that can 
deal with this threat.
    It is ironic that we seem--I believe the United States and 
the world is entering a new era. The Cold War is being left 
behind, a long way, and even the post-Cold War era is being 
left behind now. And what the new era will be, what is the 
parameters of how we operate in the world, is going to be 
different.
    And, ironically, the country that may be and the government 
that may be forcing us into a new definition of what our 
responsibilities are and what we are going to do is one of the 
most anachronistic regimes in the world. I mean, they don't 
even fit into the Cold War, I mean, the way they handle 
themselves.
    I really appreciate the information also about the 
specifics that the North Korean Government is doing, and the 
actual people who are running the North Korean Government put 
up with in terms of the idea of slavery, that they are actually 
engaged in slavery, which I think there is an important--you 
have made an important point today. I mean, this is what--that 
type of activity is intolerable, and those thousands of North 
Korean workers that are being sent overseas, and all of their 
salary being given to the government, that is, I believe, 
virtual slavery.
    And thank you for drawing our attention to that. That is 
something we should be able to deal with, and something we 
should be able to work with and with international 
organizations. Let me note that I agree with--and am very 
pleased that the ranking member, Mr. Sherman, has pointed out 
that the North Koreans are still holding Japanese hostages 
after decades. And I agree with him, that should not just be 
overlooked as if that is a past issue.
    The fact that the North Koreans are holding--kidnapped and 
are holding Japanese civilians in North Korea is something that 
should be a matter that is not relegated to the past, as long 
as they are holding these people. And that should be part of 
what we are looking at.
    Whatever we know, whatever era we are entering, we know it 
is going to be different. And I think that what may come of all 
of this is that we may find that reunification of Korea becomes 
a reality after all of these decades, and that reunification 
will itself create a new world that we have to deal with. We 
are talking about historic moments in the world. That is where 
we are at, and it is being brought about by this crazy regime 
up in North Korea, is forcing these changes upon us.
    I would also like to mention that we are now entering an 
era also where our technology is not just being utilized for 
offensive weapon systems. And thanks to Ronald Reagan, we 
started down a path of building and focusing on defensive 
systems, which make a lot more sense to me, even especially in 
cases like this where--and let me note there are several new 
technologies being developed that will give us even a greater 
ability to defend ourselves against a missile attack. And we 
certainly should make that available to South Korea and to 
Japan, and that would certainly be a message there.
    Let me ask again for some more information from you folks. 
Somewhere in the back of my mind is an action that we took, and 
I believe--and I don't know if it was a covert action, maybe I 
am just disclosing something--to prevent a transfer of money 
that was going to specific individuals in the North Korean 
Government.
    We know that North Korea, with all of its poverty and the 
lack of food, hasn't prevented luxury cars and booze and very 
expensive consumer items to going to their very elite. And I 
seem to remember that there were banking transactions that we 
challenged in some way that had an impact on North Korean 
policy.
    Could you refresh my memory on that? And is that a 
methodology that we should try to look at now to reestablish 
that policy toward the new challenge that we face? Dr. Cha.
    Mr. Cha. Yes. I think what you are referring to, 
Congressman, is the Section 311 by the Treasury Department in 
2005 that advised U.S. financial institutions not to deal with 
a particular bank in Macao----
    Mr. Rohrabacher. Macao.
    Mr. Cha [continuing]. Because of money laundering concerns. 
And in the press it is always talked about how we sanctioned 
North Korea financially. What we did was we advised U.S. 
financial institutions to be wary of business with a particular 
bank, and that then created a ripple effect that you described 
where many other banks that had North Korean accounts decided, 
well, we are going to freeze these, or we are going to 
investigate them.
    Bank presidents, regulators all started to target these 
accounts, and it had the effect of completely shutting North 
Korea off from the international financial system. They could 
not do a wire transfer. They could not access bank accounts 
through ATMs. It was really quite a powerful and forceful 
thing.
    And in answer to your question, yes, I think that we can do 
that again. North Korea has since tried to adjust, but at the 
same time they still are able to operate in the financial 
system, and there are things that we can do to make that much 
more difficult.
    Mr. Rohrabacher. Are we talking about bank accounts that 
are being controlled and who operate for the benefit of the 
leadership of--specific leaders of North Korea and 
decisionmakers there?
    Mr. Cha. I can't give you the answer to that question here. 
What I can say is that when that action happened, the North 
Korean negotiators, when they came back to the negotiation 
table, had only one demand, and that was to unfreeze the $25 
million that was sitting in that bank in Macao. They did not 
want to talk about anything else under the sun. They didn't 
want to talk about peace treaty. They didn't want to talk about 
anything else. All they wanted to talk about was that, which 
gives you a sense of how important it was to them.
    Mr. Rohrabacher. Do the other witnesses have any comment on 
that?
    Ms. Glaser. Congressman, I think that this also takes us 
back to the issue of China where there are so many of these 
small banks that exist along the border, and sometimes they 
shut down and they pop up someplace else, maybe even, you know, 
half a mile down the road.
    There are some journalists who have gotten into some of 
these banks and pretended to make transactions just to 
demonstrate how easy it is to transfer money to North Korea. 
So, again, this goes back to the issue you raised earlier of 
shutting down these banking transactions, putting sanctions on 
these banks.
    It is just essential to get the Chinese to comply with the 
sanctions that are already on the books that the Chinese have 
supported in the United Nations. And when it comes to things 
like luxury goods, just inspections along a border, they are 
episodic. There are times that the Chinese appear to want to 
signal the North Koreans that they are dissatisfied with 
something, and then they go back to business as usual.
    Mr. Klingner. If I could just add, we talk about Chinese 
resistance, the Chinese Government resistance to actions. But 
we can actually get Chinese banks to work in our interests. 
With the Banco Delta Asia issue, as I mentioned before, the 
U.S. sent officials throughout Asia, including to the Bank of 
China, to talk and point out that under Section 311 they could 
face seizure of their assets in the United States and be 
precluded from accessing the U.S. financial system, which 
really is the kiss of death for any financial institution.
    Even though the Chinese Government was urging the Chinese 
banks to resist any pressure, the banks themselves had to worry 
about their own reputational risk, their own access to the 
international system. So they complied. They severed--Bank of 
China, for example, severed its relationship with North Korea, 
even if the Chinese Government didn't want it, but they had to 
take those actions themselves to maintain, you know, the Bank 
of China as an entity.
    Mr. Rohrabacher. Thank you.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you very much.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to our 
panel. I begin by taking issue with the ranking member's 
narrative with respect to Iran in comparing it to North Korea. 
My narrative would be that this administration took up from the 
neglect and fecklessness of the previous administration with 
respect to Iran. And, whether you like it or not, the 
agreement, the nuclear agreement, is working. They are 
complying.
    And if you want to remove an existential threat to Israel, 
that is the way we did it, and it is--you know, in my view, it 
has the best probability of working of any solution offered on 
the table. Maybe one doesn't like that. Maybe one would have 
preferred a different alternative. But this is the one the 
United States Government pursued. I am glad they did. And I 
think in the long run it will be the best alternative for peace 
in the region and for taking the nuclear option with respect to 
Iran off the table.
    Now, one of the pieces of leverage we had, in addition to 
sanctions, was choking off Iran's ability to sell the one 
product it really has, and that is oil. When it comes to North 
Korea, we don't have an analogous situation other than weapons. 
I am not quite sure what it is the North Koreans really have to 
sell that we can choke off.
    Would that be a fair statement, Ms. Glaser?
    Ms. Glaser. Yes. Yes, I would agree with you, Congressman. 
I don't know what North Korea has to sell that we can choke 
off, but----
    Mr. Connolly. But that is a real big difference between--I 
mean, to analogize North Korea and Iran, I just think is apples 
and oranges, because start with the fact that Iran has got oil; 
North Korea doesn't have anything, other than maybe weapons.
    Ms. Glaser. There are some very important differences, of 
course, between North Korea and Iran, beginning with the fact 
that North Korea has nuclear weapons and has tested them and 
Iran has not. But, at the same time, I would agree with the 
points that have been made by Bruce Klingner and Victor Cha 
that there are mechanisms that we have used, sanctions that we 
have used, executive authorities we have used, against Iran 
that exist that we have not used against North Korea.
    So there are many more ways that we could pressure North 
Korea, that we have applied to Iran I believe fairly 
successfully, but have not applied to North Korea.
    Mr. Connolly. Well, let me ask that question, and I welcome 
Dr. Cha and Mr. Klingner, but it is a devil's advocate 
question. I am not promoting it, but is that the best way to 
try to restrain and shape North Korean behavior, tighten 
sanctions, tighten economic consequences, because they will 
have to scream ``uncle'' at some point? Is that really what 
history tells us about North Korea? Ms. Glaser? And then, the 
other--both of the other panelists are free to comment as well.
    Ms. Glaser. My view is that it must be part of any 
strategy. In itself, if we are not offering North Korea some 
positive vision of the future, then pressure/sanctions are 
unlikely to work.
    Mr. Connolly. Alone.
    Ms. Glaser. Alone.
    Mr. Connolly. Yes.
    Ms. Glaser. But I believe that the United States, under 
this administration and prior administrations, had made it 
quite clear to North Korea that there are many things that we 
can put on the table, security assurances, assistance, 
diplomatic relations. There is such thing as a--if you want to 
call it a grand bargain.
    The North Koreans are aware that there would be benefits 
for them if they give up their nuclear weapons. So pressure, by 
itself, of course will not work, but pressure/sanctions must be 
part of any strategy.
    Mr. Connolly. Dr. Cha? Mr. Klingner?
    Mr. Klingner. Yes, I agree. And even though my comments 
today have focused on sanctions, when I have talked about these 
in other fora in the past, I have always emphasized the context 
that it is one instrument.
    Mr. Connolly. And not always an effective one.
    Mr. Klingner. Right. Just as diplomacy has not been 
effective.
    Mr. Connolly. Right.
    Mr. Klingner. So, we often get into a binary debate of 
sanctions versus engagement, and we need both. I mean, it is 
part of a comprehensive integrated strategy. So we need 
continued offers of conditional engagement based on 
conditionality, reciprocity, transparency.
    Unfortunately, we have had many agreements, four 
agreements, for them never to pursue nuclear weapons, and then 
four agreements to give up the weapons they promised never to 
build in the first place. Additional pressure, and then also 
those two tracks we hope will convince North Korea to alter its 
behavior, and then you also need the third track of having to 
ensure that you have sufficient defenses for yourself and your 
allies.
    But when people say sanctions don't work because North 
Korea hasn't cut up its weapons, well, diplomacy was equally 
unable to do that. But sanctions have a number of other 
purposes. One is to enforce U.S. law. Two is to impose a 
penalty, a cost or pain when someone violates our law or 
international law or U.N. resolutions, and hopefully a 
deterrent to other would-be violators.
    Three is to put into place mechanisms to impede the inflow 
of prohibited items, components for their nuclear missile 
programs, and the money from illicit activities. Four, to 
prevent or at least constrain proliferation. And, five, the 
most difficult, is to alter their behavior.
    I would argue on four of the five that they have had some 
success.
    Mr. Connolly. Thoughtful. Thank you.
    Dr. Cha.
    Mr. Cha. Okay. Very quickly, Congressman, on the question 
about, what do they export that is of value? I mean, truly, 
what is of value to them? And so a couple of things come to 
mind in addition to the things that Bruce has already talked 
about.
    One, as I mentioned before, is this issue of slave labor. 
That is providing income to them. It is something that is 
clearly in violation of ILO standards, even though they are not 
a signatory to the ILO, and that is certainly one area where it 
is not Iranian oil, but it is something that certainly is of 
value to them.
    The other is there are a lot of raw materials actually in 
North Korea, and China since 2008 has extracted a lot of that 
for their two inland provinces. And when people are in 
Pyongyang, the capital city of North Korea, they say things 
look pretty good there now. That is all because of Chinese 
money from these contracts, and that is another area.
    On the diplomacy side, I don't think anybody on this panel 
is against diplomacy. I think we all believe diplomacy is 
important, but I have to say that having been--having 
participated in negotiations for the last agreements with North 
Korea, the nuclear agreements, and knowing a lot about the 
Clinton administration agreements and President Obama's, we 
have put--I mean, as Bonnie said, they know what they get. We 
put everything on the table.
    And the issue right now is that this young leader is not 
interested, and he is looking to build his programs because he 
wants to confront the next administration here.
    Mr. Connolly. Yes. If the chair would allow me one more 
question, and I will try to ask Ms. Glaser to be brief. But 
talk a little bit more about--it seems to me the one sort of 
inflection point we have got, if we have got leverage on North 
Korea, it is through China. It is in our relationship with 
China and their relationship with Pyongyang.
    How much leverage do the Chinese really have? Because from 
a distance it looks like the Chinese are in a conundrum 
themselves. They have got relationships they don't want to walk 
away from. They don't want to even unwittingly destabilize the 
peninsula and have to deal with that mess. I mean, if you gave 
them truth serum, they would probably love a peaceful 
reunification organized by the south. But that is so far away, 
you know, they can't really effectuate that.
    So how much leverage do the Chinese have, and how well are 
we pressuring them to try to effectuate better behavior from 
the North Koreans?
    Ms. Glaser. Well, the Chinese, as I said in my earlier 
remarks, have enormous potential leverage. They are unwilling 
to use it. And because the Chinese are fearful of instability 
in North Korea, the leverage they have in essence becomes North 
Korea's leverage over them. Kim Jong Un and even his father I 
think have done quite a good job of playing a very weak hand, 
not only with the United States and other countries but 
particularly with China.
    And so the North Koreans I think occasionally cause trouble 
for China in a variety of ways along the border, and in terms 
of the threats that they make toward South Korea. The Chinese 
need I think to be motivated to use the pressure that they 
have, and I don't think we have done a very good job of doing 
that.
    I agree that we should not be self-deterred in putting 
pressure on China. We should not be worried that if we put 
pressure on China on this issue that they will somehow not 
cooperate with us on climate change, or Iran, for example. We 
can use pressure, if properly applied and well-timed, I think 
can have an impact on Chinese behavior.
    And I would cite the example of when Xi Jinping was 
preparing to come to the United States last September, and the 
administration considered imposing cyber sanctions and had the 
executive authorities to do so. And the Chinese got very 
motivated to set up a new mechanism to send a standing member 
of the Politburo to discuss this issue.
    Now, this may not in the end solve the problem of the cyber 
hacking and cyber-enabled theft, and I think we certainly have 
to keep their feet to the fire on that issue. But the point is 
that when you threaten sanctions, when you have the executive 
authorities to do so, and the Chinese take you seriously, that, 
yes, you can motivate their behavior.
    There was also the discussion earlier about bolstering 
missile defense in the region, and I do think that taking steps 
that defend American interests and the interests of our allies, 
and if they happen to create a more negative security 
environment for China in the region, that may motivate the 
Chinese to do more as well. This is not something that they 
want to see. It doesn't benefit their interest.
    Mr. Connolly. I thank you very much.
    Mr. Chairman, thank you for your indulgence.
    Mr. Salmon. Mr. Connolly raised the issue that they don't 
really have much to export. Possibly they could export some 
cyber hacking training seminars.
    The Chair recognizes Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman, and thank you to 
our panel of witnesses for your thoughtful insight today. Dr. 
Cha, I wanted to ask you, do you believe that North Korea would 
use their nuclear weapons for aggressive actions?
    Mr. Cha. I don't think it is the intent of any nuclear 
weapon state, including North Korea, to use them purposely for 
aggressive purposes. Having said that, there are easily 
contingencies one can imagine where a country, especially North 
Korea, can miscalculate. And I can draw out some of those 
scenarios for you in which they have no intent to use nuclear 
weapons, but because of military calculations they are then 
compelled to. And that is what is so inherently destabilizing 
about the current situation.
    Mr. DesJarlais. I just want to talk a little bit about 
perception. I have not been to South Korea. I have not been to 
Japan. Do South Koreans and Japanese feel the same threat from 
North Korea that, say, Israel does with Iran?
    Mr. Cha. I certainly think that Japan feels mortally 
threatened by the developments in North Korea, their missile 
program as well as their nuclear program. It is the clearest 
existential threat to Japan today.
    With regard to South Korea, they have always been under the 
fear of artillery attack from North Korea. Artillery tubes are 
only seconds away from the capital city of Seoul. And I think 
there is now a growing concern about the broader nuclear 
question.
    Again, if you have been under conventional military threat, 
biochemical, artillery shells, all your life, you can get a 
little jaded. But I think that there is a growing concern about 
the broader strategic implications of North Korea's nuclear 
program.
    Mr. DesJarlais. Okay. And I am going somewhere with this. 
My sense is that, you know, here in this country we have a 
country, the only one in this century, testing nuclear weapons, 
detonate a nuclear weapon a week ago. But after the news comes 
out, it is like, oh, well, it wasn't a thermonuclear weapon; it 
was just a fission weapon, and, therefore, we don't need to 
worry about it.
    We are having a hearing today, but I will tell you that 
every Member of Congress understands the threat Israel feels 
from Iran. It is something that Israel has done to raise that 
perception, and I think that everyone has learned to respect 
that threat. And I am not sure that is the same with North 
Korea.
    And, you know, maybe our problem is that we need to raise 
that perception. Every Member of Congress, Democrat or 
Republican, generally takes a trip to Israel when they first go 
to Congress, and they see and they feel that threat. You know, 
maybe that is something Japan and something South Korea and 
other nations that feel threatened in the region should do to 
help increase that perception here in Congress, because 
honestly right now, I mean, you hear the news about Syria, you 
hear the news about ISIS, you hear about the Iran deal. It is 
sucking up all the oxygen, and that is what people are paying 
attention to.
    So you all have a lot of great ideas of what to do, but how 
do we get action? And that is, you know, why we are here today. 
So, in your opinion, what do we do to elevate the reality that 
this is a real threat? Because it just--I have been sitting 
here with my colleague, Mr. Perry, talking about, you know, 
this problem should just be solved, but yet it is not 
happening.
    And it doesn't seem that hard, but apparently it is. So 
what would you suggest? And I will give each of the panelists a 
chance to respond, 30 seconds each.
    Mr. Cha. So I would entirely agree with you, Congressman, 
that I think outside of this chamber, more broadly in the 
American public, there is a tendency to downgrade, discount, 
dismiss North Korean activities as basically a crazy regime 
that blows up bombs in a cave somewhere near China, and that we 
don't have to worry about that, and I think that is completely 
the wrong attitude.
    In part, it has been because there was a feeling that the 
United States sometimes overreacted in the past to North Korean 
actions and played into their hand. I think we are now in a 
period in which we are underreacting, and I think that is very 
dangerous.
    Mr. DesJarlais. Thank you.
    Mr. Klingner.
    Mr. Klingner. North Korea is easy to ridicule, and it is 
easy to make the butt of jokes, as members of the panel have 
pointed out. It is a very real threat, a nuclear threat, a 
biological/chemical threat, that conventional forces, cyber 
threat, human rights threat, it runs the gamut, and it is not 
only against our allies, but increasingly to the United States.
    Last year three U.S. four-star commanders said that North 
Korea has a nuclear weapon that could hit the United States 
today. They must know something. A year or so ago, South Korean 
press had a lot of articles from defectors about Kim Jong Un 
had directed a new war plan be implemented after--or created 
after he came into office, so that North Korea could take over 
the peninsula in 7 days before the U.S. could flow 
reinforcements there. That would require, as directed in that 
war plan, the use of nuclear weapons. It is a real threat.
    Mr. DesJarlais. Thank you.
    Ms. Glaser.
    Ms. Glaser. It is also disheartening to me that there is an 
underappreciation for how much of a threat North Korea's 
nuclear weapons poses, and of course Israel does such a 
terrific job in Congress and in the American public at large, I 
think more can be done in the area of public education, and 
certainly hearings such as this and on North Korea's human 
rights record I think would be very important in highlighting 
this issue.
    More actions up at the United Nations as well to get more 
people involved in this discussion. Help people to understand 
that we need to really--to dissect what the threat is, see that 
it is increasingly an existential threat, and not just put this 
on the back burner. So I completely agree with--I share your 
concern.
    Mr. DesJarlais. I thank the panel, and thank you, Chairman.
    Mr. Salmon. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. I appreciate Mr. 
DesJarlais bringing up this issue and each of you expressing 
your shared concerns about this underappreciation and really a 
lack of understanding about the threat. I represent Hawaii's 
2nd District here. And as you can imagine, being out there in 
the middle of the Pacific, every time North Korea starts making 
threats, launching these tests, this is something knowing, as 
you said, Mr. Klingner, Hawaii and the west coast, at a 
minimum, already are within range of North Korea's 
capabilities, both of an ICBM as well as a nuclear weapon.
    So this is something that really rings true and is deeply 
understood by folks in my state who recognize the need for 
stronger missile defense, who recognize the need for taking 
this threat with the seriousness that it deserves.
    I have got a few questions. The sanctions bill that we 
passed yesterday, particularly as it relates to hard currency, 
do you believe that it will have the same effect as in 2005 
when it was first put in place? For whomever would like to 
answer.
    Mr. Cha. I think the bill is great, and I think that the 
mechanism is still there to carry out the same sorts of 
targeted financial sanctioning. North Korea, since 2005, has 
tried to circumvent this. But, again, a lot of it depends on 
what entities we choose to sanction, what individuals we choose 
to target, and Chinese compliance with that.
    Having said that, I can easily imagine things that we can 
do that would not collapse the U.S.-China relationship or, as 
Mr. Sherman said earlier, not have a major effect on Wall 
Street. So there is plenty of room to operate.
    Ms. Gabbard. That will directly impact their pocketbooks.
    Mr. Cha. Yes.
    Ms. Gabbard. So along those lines, I mean, look back to 
what happened in 2005 and what led to their agreement in 2007 
when those sanctions were lifted.
    I would just like to hear your thoughts on what you see is 
a viable path forward should that end be reached, should these 
sanctions be so effective that we get to a point where we have 
got an opportunity there, understanding, really, that North 
Korea sees their nuclear program as an insurance policy against 
regime change, seeing what they learned from what happened in 
Libya with Gaddafi, and really what caused their--I think that 
window, frankly, to close, where they wouldn't trust--that if 
there was an agreement to denuclearize that the United States 
wouldn't go after them to try to implement the regime change.
    So I would just like to hear your thoughts on engagement 
with North Korea and how understanding this climate there is a 
path forward.
    Mr. Klingner. Just commenting on yesterday's bill, it 
closes a number of loopholes. It elevates a number of existing 
executive orders or regulations to legislation giving it 
additional power. It makes a number of implementations 
mandatory rather than discretionary. So I think it has--will 
provide a number of benefits to the U.S. effort.
    But the bill, as well as existing measures, it is dependent 
on the implementation and our willingness to use the powers we 
already have. Last year the executive order that was released 
in January allows the U.S. to sanction North Korean officials 
simply for being North Korean officials. We don't even have to 
provide evidence that they have conducted illegal activity. 
That gives us tremendous power. The U.S. sanctioned 16 Russian 
officials for being Russian officials after the Crimea 
incursion. We haven't used that power as much as we could.
    The target has changed. Banco Delta Asia was very effective 
because it was a very large conduit. North Korea has adapted 
since then. But it is sort of like the cockroach theory of law 
enforcement. You go into a kitchen, you turn on the light, you 
see where the cockroaches are, and where they run off to. If 
you take out the first node, the Plan A of North Korea, you 
then alert your intelligence and law enforcement authorities, 
so they watch where the money gets redirected, where the 
cockroaches go.
    Ms. Gabbard. Right.
    Mr. Klingner. It is then you go after the Plan B.
    Ms. Gabbard. Right.
    Ms. Glaser. On the issue of engagement, Congressman, as we 
talked about earlier, we have to have a strategy that deals 
with--that is composed of engagement as well as coercive steps. 
As far as I understand, the United States engages with North 
Korea. We have the channel in New York. We do talk to the North 
Koreans.
    But I think we have to be careful about agreeing to revive, 
you know, the Six Party talks mechanism, as the Chinese often 
encourage us to do, in the absence of some return to the 
commitments that the North Koreans made under the 2005 and 
other agreements.
    Now, the North Koreans want to engage in dialogue so that 
they can get a peace treaty and be recognized as a nuclear 
weapon state. I think that is a bad outcome for the United 
States and our interests and our allies.
    So we have to engage North Korea in a way that they 
understand that there are steps that they have to take. They 
have to go back to these commitments of giving up nuclear 
weapons. And if they are willing to go ahead with a freeze as a 
first step toward--with the understanding that the goal is that 
they eventually give them up, then I think the United States 
has always been willing to work with that.
    I don't think there are signs that under Kim Jong Un that 
the North Koreans are willing to engage in serious negotiations 
with the end goal of denuclearizing the peninsula. So I think 
that engagement, yes, but we have to be careful about how we 
use it.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman, for holding this hearing and for 
continuing to help increase awareness on North Korea's threat.
    Mr. Salmon. Thank you very much.
    The Chair recognizes Brigadier General Perry.
    Mr. Perry. Congressman Perry will be fine. Thank you. 
Thanks to the chairman. Thanks to the panel.
    A list of questions here, maybe just all at once, and if 
you would comment, you know. I understand that we are 
reportedly in talks with South Korea regarding the 
reintroduction of nuclear weapons, United States' nuclear 
weapons onto the peninsula. What is the status of that, if you 
know? Why wouldn't South Korea be interested?
    Regarding the introduction of THAAD, the missile defense 
interceptor system, why not? Is South Korea concerned that it 
would be too provocative? Why wouldn't they want that?
    Regarding curtailing conventional arms sales, how would 
that be done? Again, you know, I have been listening, as 
everybody else has, the whole time saying, ``Why aren't we 
doing this?'' And you folks are the experts and you don't know, 
but maybe you can give me some insight into that.
    And regarding increasing the pressure on their human rights 
atrocities, which are just unimaginable to me, what is the best 
way? What is the best way to do that? And from my standpoint, 
I, like you folks, don't understand at all why we are not 
imposing these financial sanctions out of hand, like with your 
morning coffee. To me, the President should just sign that and 
on with--and move on to the next terrain feature, but that is 
my perception.
    What would be the response to some of these things from our 
allies and trading partners in the region? Thank you.
    Mr. Cha. I will take a piece of those, and then I will look 
to Bruce to take other pieces of it. In terms of the why, you 
know, why haven't we done more question, one aspect of this is 
China, and we have had a very full discussion on that. I think 
the other part of it is that it is priority and commitment.
    This has not been a priority, unfortunately, even though, 
as I said, it is a very dangerous situation. And there has to 
be a political commitment to make the North Korean regime feel 
like there are costs to their behavior. There has been a 
political commitment to create the machinery, but there hasn't 
been a political commitment to implement.
    I think part of the reason there hasn't been that is that 
there has always been some hope that there is a chance for 
diplomacy, like with Iran, like with Cuba, or like with 
Myanmar. But I am of the view that we are not going to see any 
diplomacy until the end of this administration.
    Mr. Perry. If I can interrupt you, is there a downside 
risk? Because I don't see a whole lot of downside risk. I 
understand that there is no commitment to going the upside, and 
you might expend some capital or whatever. I just don't see 
any--like what do we lose by doing this?
    Mr. Cha. Well, I think the primary downside has to do with 
China and the relationship with China. At least that is the 
perceived downside. And then there is a degree of inertia. I 
think there really is a degree of inertia, because this is an 
issue traditionally that administrations want to put on the 
shelf. They don't necessarily want to commit to solve it. They 
want to put it on the shelf.
    And so there is almost a pattern to this. They do a 
provocation, we issue a statement, we slap a sanction on them, 
and everybody goes back to dealing with other issues. And that 
is a rapidly deteriorating situation.
    Mr. Klingner. If I could address them in reverse order. On 
human rights atrocities, as I have included in my statement, a 
number of cases where we have imposed sanctions and measures on 
other countries for their human rights violations but not North 
Korea, we have the authority to do so, obviously. We have done 
it to other countries. And also, the executive order of last 
January, which gives us the authority to sanction someone for 
being a member of the government.
    You know, tomorrow with his morning coffee the President 
could add 50 North Korean entities, including Kim Jong Un by 
name, as well as every agency named in the U.N. Commission of 
Inquiry report, as well as the heads of all of those agencies. 
I don't know why we don't do that.
    Curtailing conventional arms sales--the U.N. resolutions 
not only cover the nuclear and missile programs, they also 
prevent trade on conventional arms. There have been at least 
three interceptions of conventional arms shipments from North 
Korea to other nations, but apparently in the resolution 
sanction-busting hierarchy, they are not worth enforcing 
because they didn't even convene U.N. meetings about those 
violations.
    So one thing we should be pushing for at the U.N. is 
Chapter 7, Clause 42 authority, which allows military 
enforcement of the U.N. resolutions. That doesn't mean attack, 
it doesn't mean invasion, but it provides the authority for, 
say, Coast Guard interception of ships.
    We have had cases where the U.S. warships have been 
trailing North Korean freights for hundreds of miles, because 
we didn't have the authority to board or inspect them. On 
THAAD, I can send you a copy of my report on THAAD, South Korea 
has been hesitant, I believe, because of Chinese pressure and 
economic blackmail.
    But last night during a major speech President Park Geun-
hye, I think for the first time her administration said they 
want to discuss with the United States the possible deployment 
of THAAD to the peninsula.
    And reintroducing nuclear weapons, that is very 
contentious. Both the U.S. and South Korean Governments have 
said they don't see a military necessity of putting U.S. 
nuclear weapons on the ground in South Korea, because we have 
sea-based and air-based weapons which can do the job and 
wouldn't provide a sort of preemptive target in South Korea for 
North Korea.
    Ms. Glaser. If I could just add briefly, Congressman, 
President Park has attached a great deal of priority to China, 
hopes to gain China's support ultimately for reunification, but 
also in the near term for putting more pressure on China. And I 
agree with my colleagues that I think that is the main issue 
with THAAD. I don't think that President Park is unmovable on 
this issue, and with the growing threat she may agree.
    But the Chinese seek to weaken U.S. alliances, and this is 
a major problem in trying to deal with the North Korea problem. 
Unless we can have a bigger strategy with the Chinese, make 
this a priority, and perhaps give China some of the 
reassurances that Congressman Sherman was talking about 
earlier, if we really have a reunified peninsula and we don't 
need to necessarily have troops along China's border.
    The Chinese are very concerned, though, that the situation 
could be far more detrimental to them today than--in the future 
than it is today.
    I also think there is an issue with the United States 
giving China credit for very small steps it takes--for example, 
supporting a U.N. Security Council Resolution--that it has 
diluted, prevented the application, for example, of economic 
sanctions, banking sanctions, just because the United States 
wants to isolate North Korea, and that is a valuable goal.
    Yes, we should seek to isolate North Korea, but at the same 
time we should be putting far greater pressure on China to do 
more. And the Chinese believe that the United States is not 
prioritizing this issue. They see us as having put this on the 
back burner, and so little incentive for them to attach a 
priority to it either.
    Mr. Perry. Yes. I think we just continue to reward bad 
behavior. And as much as the Chinese are I think doing a 
delicate dance with their economy and their political system, 
at the end of the day I think that it serves their purpose to 
have North Korea remain communist or totalitarian. They are 
communists at their heart, and that is what they want to 
maintain.
    And with all due respect to South Korea and the President, 
I understand what she is trying to get to. But at their heart, 
they are communists, and that is who they are.
    But thank you, Mr. Chairman, for the hearing.
    Mr. Salmon. I would like to really thank the panel members. 
I think that this has been an incredibly productive hearing.
    Congressman Perry, you asked a lot of questions I think 
that a lot of us have been entertaining ourselves. You know, a 
lot of the whys, why--you know, is North Korea less of a threat 
than they were several years ago when there was tons of media 
attention and concern across America. And just 3 short years 
ago in the Presidential debates it was front and center, one of 
the most important issues of our time.
    And the only thing that kind of comes to mind is an old 
adage, if a tree falls in the forest and nobody hears it, did 
it make a sound? And we just haven't focused the attention--
when I say ``we,'' I don't think it has been a priority for the 
last 3 years.
    Mr. Perry. The question I have is, what is it going to 
take?
    Mr. Salmon. Well----
    Mr. Perry. And that is scary.
    Mr. Salmon. And I think that is why we are here today, 
because in the absence of leadership on this issue I think that 
that realm falls to us, that we have a responsibility then to 
stand up and try to take matters into our hands, whether it is 
trying to influence South Korea on THAAD, or whether it is 
looking at potential new sanctions or, at the very least, 
redeclaring North Korea a terrorist state.
    There are lots of options I think that are on the table, 
and that is the reason that we did the hearing today, not just 
to shine light, not just to talk, but I think our goal is to 
try to put together legislation--a bill or several bills--that 
will try to move us in the right direction.
    And my intention is to work with the panelists to try to 
craft that legislation and mark it up for a full committee 
hearing, because while other parts of the globe are in 
jeopardy, that doesn't diminish the threat that this part of 
the globe holds. And just because we are not paying attention 
to it doesn't mean that it is not a serious threat.
    And I think that it is time that we focus our attentions on 
this serious, serious, serious issue that poses a threat to not 
just our national security, our allies in national security, 
but global national security. The threat of a nut job like Kim 
Jong Un having deployment capabilities with a nuclear weapon is 
incredibly frightening.
    I think one of the things we didn't talk about today, what 
about the possibility--even if it is remote, what about the 
possibility of a partnership between North Korea and Iran? With 
all the money that Iran now has, or will have, and nuclear 
capabilities in North Korea, what about the possibility of 
joining forces to become an uber threat to everything that we 
hold dear.
    So I think that this hearing is not an ending place. It is 
a beginning place for what needs to take our attention. I 
think, Mr. Chairman, you wanted to make a comment.
    Mr. Sherman. As to our attention, they say in journalism if 
it bleeds, it leads. The Middle East, therefore, gets the 
attention, and it deserves some attention. But this North 
Korean problem is a threat to Asia and the United States.
    And then as to the possible connection between North Korea 
and Iran, we need an agreement with China that there are no 
nonstop flights between North Korea and Iran. They would all go 
over Chinese airspace. We don't have to make a big political 
deal, just inform the planes that if they want to fly over your 
airspace, they have got to stop in a Chinese city for 
refueling. It would be unsafe for them to go that extra mile 
all the way without stopping for refueling. And if that 
happens, I am sure the Chinese will take a look at the plane. 
If we don't have that, the money is there on the one hand, the 
desire for nuclear weapons, and the 12th--the 13th nuclear 
weapon goes on eBay.
    I yield back.
    Mr. Salmon. I think what is really clear is that we have to 
break outside the existing paradigm, and the status quo is not 
working. And so we have to be creative and start coming up with 
some maybe old ideas with oomph or some new ideas, and I am 
open.
    And so thank you very much for the panelists. Thank you, 
Ranking Member, and the committee members as well.
    This meeting is now adjourned.
    [Whereupon, at 10:49 a.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
                   
                                [all]




</pre></body></html>
